A

Supreme Court, U.S.
FILED

JUN 3 0 2021
No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

WALLACE HAMMERLE

— PETITIONER

(Your Name)

vs.

WARDEN DYLON RADTKE
GREEN BAY CORRECTIONAL

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

WALLACE HAMMERLE #182685

(Your Name)
REDGRANITE CORRECTIONAL
P.O. BOX 925
(Address)
REDGRANITE, WI.

54970

(City, State, Zip Code)

(Phone Number)

reA 9Era

QUESTION(S) PRESENTED
1. why did the Eastern District Court and Seventh Circuit Court
. overlook and deny my appeal on DNA testing that I have a
Constitutional right to, to prove my innocence and possibly
convict the real culprit of this case?
2. Why did the Eastern District and Seventh Circuit court just
blow over all the Ineffective Assistance of Counsel issues
I have on Trial Counsel as well as Appellate Counsel violating
my Constitutional rights?
3. Why am I being denied my Constitutional right to a fair and
impartial judge, jury, and place of trial, when I requested
to my Trial Attorney for a complete change of venue way
before trial, the case was very prejudicial in my area and
alot of corrupt impartial state, law officials and attornies
are involved with the corruption with my case as well as
alot of organized crime in my area?
4. Why is my Constitutional rights being violated on my grounds
that I am an innocent man in regards to the charges I am
doing time for right now?

i

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[X] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
1.WISCONSIN ATTORNEY GENERAL JOSHUA KAUL
2.Green Bay Correctional Warden Dylon Radtke

RELATED CASES
1) State v. Hammerle (Wood County Case No. 2001CF000144)
2) State v. Hammerle 2004 WI. App. 88
272 Wis. 2d 854, 679 N.W. 2d 926, 2004 WI. App. Lexis 206
3) State v. Hammerle (WI. Court of App
AP000594-CR)

case NO. 2003

4) Hammerle v. Warden Dylon Radtke
Eastern District Court of App. WI. Case No. 19-cv-1773
5) Hammerle. v. Warden Dylon Radtke
United States Court of App. for the Seventh Circuit
Case No. 20-3302

ii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3*.*4

STATEMENT OF THE CASE

5, 6

REASONS FOR GRANTING THE WRIT

7-11
11

CONCLUSION

INDEX TO APPENDICES
APPENDIX A United States Court of Appeals decision 7th Circuit
APPENDIX B United States Eastern District Courts decision

APPENDIX C Wisconsin Supreme Courts decision
APPENDIX D Wisconsin Court of Appeals District IV decision
APPENDIX E
APPENDIX F

iii

TABEL of AUTHORITIES CITED
CASES
Berry v. Gramley
74 F. Supp. 2d 808(1999)

PAGES
8

Cuyler v. Sullivan
446 U.S. 335 (1980)

8

Dugger v. Adams
489 U.S. at 401,411

9

Elizondo
947 S.W. 2d at 204

7

Herrara
506 U.S. at 399

7

Jones v. Woods
114 F. 3d 1002 (9th cir. 1997)

11

Siverson v. O'Leary
764 F. 2d 1208 (7th cir. 1985)

11

State v. Denny
878 N.W. 2d 679 (2016)

2016 WI. App. 27

State v. Hudson
2004 WI. App. 99

7
7

Strickland v. Washington
466 U.S. 668 (1984)

11

U.S. v. Bishawi
186 F. Supp. 2d 889 (2002)

11

U.S. v. Button
575 F. Supp. 1320 (1983)

8

U.S. Ex. Rel. Gibson v. Me. Ginnis
773 F. Supp. 126 (1991)

11

U.S. v. Matos
905 F. 2d 30 (1990)

8

Wade v. Armontrout
798 F. 2d 304 (1986)

8

iiii

TABEL of AUTHORITIES CITED cont.
PAGES

STATUES and RULES
946.64

4,11

971 .20(2)

4,9

971 .22(1 )

4,9

-971 .225

4,9

974.07

7,8

978.08

7,8

28 U.S.C. § 1254

7,11

CONSTITUTIONAL AMENDMENTS
I.

Passim

V.

PaSSim

VI.

Passim

VIII.

Passim

XIII.

Passim

XIV.

Passim

OTHER
Congressional Research Service; The use of
DNA by the Criminal Justice System and the
Federal Role: Background, current law and
Grants. Updated January 29th, 20211 (R41800)
http://crsreport.congress.gov. (R41800)

4,7,8

16 Harv. J.L. and Pol'y 818 (1993) (Actual Innocence)
U.S. Constitution Article III Sect. 2: Jurisdiction:
original and Appellate: criminal trials, venue, jury.

iiii

cont.

Passim

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix —A— to
the petition and is
; or,
bd reported at No. 20-3302
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix —5— to
the petition and is
; or,
[x] reported at case No. 19-CV-1773
[ ] has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
[ 3 For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix c— — to the petition and is
; or,
[x] reported at 03-0594-CR State v. Hammerle
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Wisconsin Court of App. District IV court
appears at Appendix
d__to the petition and is
; or,
[X] reported at 03-0594-CR State v. Hammerle
[ ] has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was February 3rd. 2021
lx] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case wasAu9ust 2nd' 2004.
A copy of that decision appears at Appendix
n
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United Constitution Article III Sect. 2. Jurisdiction;
original and Appellate: Criminal Trials, Venue, Jury.
The Judicial power shall extend to all cases, in law and
equity, arising under this constitution, the laws of the United
States , and treaties made, or which shall be made, under their
authority; to all cases affecting ambassadors, other public
ministers and consults; to all cases of admirality and maritime
jurisdiction; to controversies to which the United States shall
be a party; to controversies between two or more states, between
a state and citizen of another state, between citizens of differant
states, between citizens of the same state claiming lands under
grant of differant states, and between a state or the citizen
there of, and foreign states; citizens or subjects.
In all cases affecting ambassadors, other public ministers
and consuls, and those in which a state shall be party, the
Supreme Court shall have original jurisdiction, In all the
other cases before mentioned, the Supreme Court shall have
Appellate jurisdiction, both as to law and fact, with such
exceptions, and under such regulations as the congress shall
make.
The trial of crimes, except in cases of impeachment, shall
be by jury; and such trial shall be held in the state where
the said crimes shall have been committed; but when not committed
within any state, the trial shall be at such place or places
as the cogress may by law have directed.
U.S. CONSTITUTIONAL AMENDMENTS
I.

Congress shall make no law respecting and establishment
of religion, or prohibiting the free excercise thereof;
or abridging the freedom of speech, or of the press; or
the right of the people peaceably to assemble, and to
petition the Government for a redress of grievances.

V.

No person shall be held to answer for a capitol or otherwise
infamous crime, unless on a presentment or indictment of
a Grand Jury, except in cases arising in the land or naval
forces, or in the militia when in actual service in time
of war or public danger; nor shall any person be subject
for the same offense to be twice put in jeopardy of life
or limb; nor shall be compelled in any criminal case to
be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor
shall private property be taken for public use, without
just compensation.

3.

U.S CONSTITUTIONAL AMENDMENTS cont.
VI.

In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the state and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of the
nature and cause of the accusation; to be confronted with
the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the assistance
of counsel for his defense.

VIII.

Excessive bail shall not be required, nor fines
impossed, nor cruel and unusual punishment inflicted.

XIII.

sect. 1. Neither slavery nor involuntary servitude,
except as a punishment for crime, whereof the party shall
have been duly convicted, shall exist within the United
States, or any place subject to their jurisdiction.

XIV.

sect. 1. All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are citizens
of the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the priviledges or immunities of the United States;
nor shall any state deprive any person of life, liberty,
or property without due process of law; nor deny to any
person within it's jurisdiction the equal protection of
the laws. .
The U.S. Supreme Court has jurisdiction under
28 U.S.C. § 1254 to review the court of appeals by Writ
of Certiorari.
STATE STATUES

946.64

Communicating with jurors outside of defense presence.

971 .20(2)

Substitution Judge.

971.22(1)

Move case to differant place of trial.

971.225

Jury from another county.
OTHER LEGAL WRITEUPS etc.

Congressional Research Service: The use of DNA by
the Criminal Justice system and the Federal Role: Background,
current law, and grants. Updated January 29th, 2021(R41800)
http://crsreport.congress.gov.(R41800)
16 Harv. J.L. Pol'y 818 (1993) (Actual Innocense)
The focus is on the present, not the prior trial, this
issue is of substantive due process analysis.

4.

STATEMENT OF THE CASE
This is a Writ of Certiorari on an adverse decision of
the Eastern District Court of Wisconsin and the Seventh Circuit
Court of Appeals.
On January 31, 2002, Wallace Hammerle was found guilty
of First Degree Wreckless Homicide involving the death of D.L.K.
On March 11, 2002, he was sentenced to 60 years with 40
ye’ars initial confinement and 20 years of extended supervision.
On Februaury 11, 2003, Mr. Hammerle's post conviction motion's
were denied by Judge Zappen.
The Court of Appeals affirmed the conviction on March 4, 2004.
On August 2, 2004, the Supreme Court of Wisconsin denied
Mr. Hammerle's Petition for Review.
On October 21, 2021, the United State's District Court
for the Eastern District of Wisconsin dismissed Mr. Hammerle's
Petition of Habeas Corpus,.denied his appealability, and dismissed
his case.
On February 3, 2021, Mr. Hammerle's certificate of
appealability was denied by the United State's Court of Appeal's
for the Seventh Circuit and appeal ground's were not even
responded to.
The lower state court nor the appellate and it's State
Supreme Court thru both Ineffective Trial Counsel up to
defendant's Appellate counsel both refused and denied Hammerle
his Constitutional right under D.N.A. in order to prove
Hammerle's protected right to prove that Hammerle did not do
that crime yet alone to prove yet another person committed that
offence thru D.N.A. evidence.
The Trial and Appellate counsel yet further denied Hammerle
the questioning of the state's witnesses whom helped destroy
finger print's and other latent D.N.A. evidence of the apartment
where D.L.K. mother lived.
The propertyTwas owned by a member of the Wisconsin Rapid's
Police Department whom was city police officer Robert Webster,
yet both him and Detective Wesener also denied Hammerle his
constitutional right to secure such evidence from D.L.K. mother's
rental property and yet allowed a member of her police force
to destroy such crucial evidence that could have shown finger
print's and other latent D.N.A. evidence.
The state was possibly told of those event's and covered
up such crucial set of fact's.

5-.

STATEMENT OF THE CASE cont.
Hammerle and his attorney Danan Duncan were first told
at his trial that the door frame and bedroom in question had
been painted since this case started, thus covering up/ destroying
any and all finger print's and latent D.N.A. evidence brought
to defense attention first during his trial, thus leading
Hammerle to believe thing's said to his trial counsel was leaked
to the state ahead of time thus leading to the coverup.
Trial Attorney Dana Duncan nor an investigator nor our
pathologist ever visited the crime scene to do any investigating
themselves's, trial Attorney Duncan just went off the state's
version of investigating.
Trial Attorney Duncan also went off state's number of
conviction's for the state's witnesses and had he of done his
own investigating would have found out the State's "Star" witness
a jailhouse informant had more like 200 conviction's in Wisconsin,
Illinois, and Arizonia alone and not only the 8 conviction's
the state provided defense with.
The Trial counsel, Attorney Duncan and also Appellate counsel
Attorney Jame's Connell denied Hammerle his constitutional right
to a fair and impartial trial, jury and place of trial by not
asking for a complete change of venue, yet other evidence of
Inefffective counsel.
As for both the lower court Federal court's in Wisconsin,
the Eastern District of Wisconsin up to the Seventh Circuit
court of appeal's for reason's set above.
Hammerle has continually asked to be appointed pro-bono
counsel and due to him being indigent and ignorant to the law's
and the way's of the court's.
Hammerle was denied D.N.A. evidence thru other D.N.A. and
finger prints found in either photo's taken by the state or
evidence collected by state's pathologist/ medical examiner
and their testimony at trial; with other hidden fact's in the
state's file's and trial counsel's file being held under
confidential evidence and fact's.
State violated Hammerle's right to counsel by placing
prison informant on Hammerle to solicit information and when
that failed informant or his gang buddies broke into Hammerle's
locker when Hammerle was at Recreation to copy down any case
information they could and add things to the matter's possibly
supplied by the state or law inforcement.

6.

REASONS FOR GRANTING THE PETITION
i.

THE QUESTION PRESENTED IS ONE OF
EXTRAORDINARY NATIONAL IMPORTANCE THAT
THE LOWER COURT1S WILL NOT FURTHER ANALYZE.
This court has repeatedly recognized the importance to
the public at large of resolving question's of D.N.A. testing
and the constitutional right to a defendant to prove his
innocence when claiming "Actual Innocence" claim's.
Such as but not limited to case's like Herrara 506 U.S.
at 399 (Purpose of the system is to convict the guilty and free
the innocent).
Forbiding the incarceration of the innocent, U.S.
Constitution, 14th Amendment violation of due process,Elizondo
947 S.W. 2d at ,204.
,
Substantive Due Process claims of actual innocence at
16- Harv. J.L. and Pol'y 818 (1993)
The use of D.N.A. by the criminal justice system and the
Federal Role: Background, current law, and grants. Updated
January 29, 2021. (R41800), http://crsreport.congress.gov.
(R41 800) .
Motion's for post conviction D.N.A. testing of certain
evidence, Wis. Statue 974.07.
Preservation of certain D.N.A. evidence, Wis. Statue
978.08.
Right of a defendant to have D.N.A. tested independantly
or if indigent by the state or government, State v. Hudson 2004
Wis. App. 99, State v. Denny 878 N.W. 2d 679 (2016), 2106 Wis.
App. 27.
The Supreme Court shall have original jurisdiction in all
cases affecting ambassadors, other public ministeries and
counsel's, and those in which a state shall be a party, the
Supreme Court shall have Appellate jurisdiction, both as to
law and fact's, with such exception's, and under such regulation's
as the congress shall make U.S. Constitution Article III sect. 2
Jurisdiction: original and Appelate: Criminal trial's, Venue,
Jury.
Mr. Hammerle's constitutional right's were violated regarding
his Habeas Corpus ground's and question's presented within this
Writ of Certiorari: I, V, VI, VIII, XIII, XIV.
As well as the U.S. Supreme Court has jurisdiction under
of c4rtiorfri?54<1) t0 review the court of appeal's by Writ
7.

REASON*S FOR GRANTING PETITION cont.
II.
THE FEDERAL COURT OF APPEALS HAVE OUTRIGHT
DENIED MR. HAMMERLE'S CONSTITUTIONAL RIGHT'S
CLAIM'S TO INEFFECTIVE ASSISTANCE OF COUNSEL
WHICH THIS COURT AND THE U.S. CONSTITUTION
SAY'S HE HAS HAS A RIGHT TO.
The Eastern District Court of Wisconsin and the Seventh
Circuit of Wisconsin didn't even rule on any of Mr. Hammerle's
many Ineffective Assistance claim's on both Trial counsel as
well as Appellate counsel which Mr. Hammerle has a right to
Affective counsel not counsel that weren't familiar with the
law's and fact's of the case. U.S. v. Button, 575 F. Supp.
1320 (1983).
Trial counsel nor an investigator for defense never visited
the crime scene to do any investigation's, the Trial Attorney
Dana Duncan just went off the state's sopposide investigation's,
Wade v. Armontrout 798 F. 2d. 304 (1986). Berry v. Gramley 74
F. Supp. 2d. 808 (1 999), U.S. v. Matos,—905 F. 2d 30 (1 990),
Cuyler v. Sullivan, 446 U.S. 335 (1980).
Trial counsel never requested D.N.A. testing of Mr. Hammerle
Dawn Kuehl, baby D.L.K., babies clothing, door frame and bedroom
wall, I said Dawn stumbled and fell into while under the influence
of drug's and alcohol on said day of this incident.
Officer Robert Webster that owned Dawn's rental property
also responded to the emergency call to this residence, he painted
the door frame and wall's of this bedroom shortly after this
incident which didn't need painting as Dawn and Mr. Hammerle
had just painted all the ceiling's and wall's in every room
of this house shortly before this incident, so he destroyed
and covered up D.N.A. evidence.
Had Mr. Hammerle's Trial Attorney or an investigator
investigated the crime scene and ordered D.N.A. testing any
finger prints and latent D.N.A. would have been covered up/
destroyed.
If Mr. Hammerle's Trial Attorney or even the state had
requested D.N.A. testing Mr. Hammerle could have been cleared
of this case and the real culprit could have been convicted
of this crime.
Appellate counsel Jame's Connell could of filed Ineffective
Assistance of Counsel on Trial Counsel Mr. Duncan for these
reason's, also D.N.A. could have been yet ordered. Wis. Stats.
974.07, Motion for D.N.A. testing of certain evidence. 978.08.
Preservation of certain evidence,Congressional Research Service:
The use of D.N.A. by the criminal justice system and the Federal
Role: Background, current law, and grant's Updated January
29, 2021 (R41800), http://crsreport.congress.gov. (R41800).
8.

REASON'S FOR GRANTING THE PETITION cont.
16-Harv. J.L. and Pol'y 818 (1993) (Actual Innocence), the focus
is on the present, not the prior trial, this issue is of
substantive due process analysis.
Trial counsel never requested a complete change of venue
with this case as it was very prejudicial in that community,
not only general public but also by state official's, law
official's and other big shot's, such as but not limited to
Attornies, it was election year so alot of promotion's and
election's going on this year, this case was ripe for all kind's
of benefit's for the big shot's. Wis. Stats., 971.20(2)
substitution of Judge, 971.22(1) move case to differant place
of trial, 971.225 jury from another county.
Trial Attorney not properly investigating jailhouse informant
and his criminal record, just went off state saying he had only
8-conviction's, but had attorney investigated or had investigator
do it, he would have found out the smorgasboard of 200-conviction's
this informant had between Wisconsin, Illinois, and Arizona,
also who knows where else he's had problem's with the law and
what not all in his life.
Attorney not objecting to use of stun belt on defendant
at trial totally visable on his side to the juror's, this was
very prejudicial to a fair and impartial trial.
Trial Attorney never requested an evidentiary hearing on
informant's statement and testimony at preliminary hearing to
properly impeach him before trial which is only to test the
plausability at preliminary hearing,also evidentiary hearing
on D.N.A. testing should have been ordered before trial to help
with case, trial and to potentially clear defendant and convict
the real culprit of this crime.
Trial counsel not investigating Ms. Kuehl's extensive drug
and alcohol history and problem's she's had in the past because
of it.
Trial counsel could have requested the court to order Dodge
Correctional to turn over the barrick's video footage to show
informant or fellow gang member friend's of his breaking into
defendant's bed locker to get to the little case information
defendant had, so informant could build on it and get this case
blamed on defendant, possibly planted by the state to illegally
solicit or steal case information from defendant which amount's
to violation of denial of counsel present to illegally solicit
evidence.
Federal Habeas can excuse procedural default of unjust
incarceration. Dugger v. Adams 489 U.S. at 401, 411 .

9.

REASON'S FOR GRANTING THE PETITION cont.
Trial counsel not impeaching Fawn Hick's, Mildred Brown,
and Susan Belisle on accusation's they made that defendant
supposidly said that defendant claim's he didn't that were very
prejudicial, and why didn't Ms. Kuehl ever testify defendant
said these thing's when these people said she was present during
these so called event's.
Trial counsel allowing DA- Wolf to lie/mislead the court's
and juror's at defendant's trial when he said defendant confronted
informant's brother Charles Estep at Fox Lake Correctional saying
he'd defend himself if Charles or any of his gang friend's came
at defendant, this statement was never said to Charles, but
to inform defendant's unit Sargent when he told him what happened
with his case and informant's brother just arrived at the
institution so they had a record of thing's in case there was
any problems.
Trial counsel not objecting to his limit on use of evidence
at trial.
Trial counsel not opening up on informant when he didn't
state how many conviction's he had, only said he had like retail
theft and writing bad checks, making him look like a petty
criminal, when really he had like 200- convictions in Wisconsin,
Illinois, and Arizona and who knows where else he may yet have
other convictions. Thee attorney let him slide on his misleading
answer to the question so he mislead the court's and juror's.
Trial counsel not objecting to his limit by the court on
his closing argument when there was a wide open clause for this.
Appellate counsel for not filing ineffective Assistance
of counsel claim's on trial counsel for all the claim's of
Ineffective Assistance defendant had on trial counsel listed
on the last upteen pages as well as other claims defendant gave
him as follows:
Appellate counsel not filing as a ground; defendant and
trial attornies absence when juror's came back into court during
deliberation's to ask further question's on thing's said, also
to see if they could get some evidence exhibit's, it was critical
part of defendant's trial.
Appellate counsel not filing on ground judge allowed very
prejudicial statement's that shouldn't have been allowed, judge
said was to show "motive" but motive isn't even an element of
Reckless Homicide.
Also judge allowed evidence of defendant abscounding
probation/parole just to show "motive" again, which shouldn't
have been allowed, was to muddy things up for defendant was all.

10.

REASON'S FOR GRANTING THE PETITION cont.
Appellate counsel not raising appeal claim of Ineffective
Assistance of Trial Counsel for raising D.N.A. testing issue
or having an evidentiary hearing on the issue.
All these Trial counsel and Appellate counsel Ineffective
claims are constitutional right violation's.
Siverson v. O'Leary: 764 F. 2d 1208 (7th cir. 1980) Absence
from court during deliberations, amounts to denial of counsel.
Wis. Stats. 946.64, communicating with jurors out of
presence of defense.
U.S. Ex. Rel. Gibson v Me Ginnis, 773 F. Supp. 126 (1991),
jailhouse informant placed in cell, 6th amendment violation,
denial of counsel.
U.S. v Bishawi: 186 F. Supp. 2d 889 (2002). Exparte
communicating by judge and DA to jury out of presence of defense.
Strickland v Washington 466 U.S. 668 (1984), Ineffective
Assistance of counsel, Jones v Wood 114 F. 3d 1002 (9th cir.
1997).
U.S. Constitution Article III sect. 2: Jurisdiction: original
and Appellate, criminal trials, venue, jury.
U.S. Constitution Amendments I, V, VI, VIII, XIII, XIV.
The U.S. Supreme Court has jurisdiction under 28 U.S.C.
§1254(1) to review the Court of Appeals by Writ of Certiorari.
CONCLUSION
For the reason's set forth here in, Mr. Hammerle request's
the court grant appealabilty and rule on his constitutional
right to both Effective Assistance of counsel and D.N.A. evidence
and a right to a fair and impartial trial.

* »/

Respectfully Submitted,
State of Wisconsin
r
County of Waushara
xJ and sworn to before me this
8]
dayofvju

Wallace Hammerle 1 82685 -

4‘

T

___"XJ-4
SyVjlAjU.
Elizabeth Milk Notary Pubfte ■ 7
expiration DATE, o w '
Afo

Date:

11 .

